  Office of Inspector General
       Audit Report


 OVERSIGHT WEAKNESSES LIMIT DOT’S
   ABILITY TO ENSURE PASSENGER
PROTECTIONS DURING LONG, ON-BOARD
           FLIGHT DELAYS

     Office of the Secretary of Transportation
          Report Number: AV-2015-001
          Date Issued: October 9, 2014
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Oversight Weaknesses Limit DOT’s                                              Date:    October 9, 2014
           Ability To Ensure Passenger Protections During
           Long, On-Board Flight Delays
           Department of Transportation
           Office of the Secretary of Transportation
           Report No. AV-2015-001

  From:    Matthew Hampton                                                                   Reply to
                                                                                             Attn. of:    JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Office of General Counsel

           Airline passengers experienced over 2 million flight delays per year in 2012 and
           2013. In the same time period, the number of domestic on-board delays reported
           by air carriers exceeding 3 hours more than doubled, from 41 to 84. 1 While
           lengthy on-board delays 2 are rare events, they cause passengers undue discomfort
           and inconvenience, particularly when the delay occurs on the tarmac with
           passengers on board the aircraft. Both Congress and the Department of
           Transportation (DOT) have taken steps to ensure that airlines are providing
           passengers the best service possible during these lengthy tarmac delays.

           Since 2000, our office has issued numerous recommendations to DOT to reduce
           the impact of flight delays and cancellations on air travelers. 3 In response, DOT
           issued regulations 4 in 2009 and 2011 to increase the accountability, enforcement,
           and protection afforded to air travelers by requiring airlines to establish
           contingency plans with assurances that provide for passenger comfort during long,
           on-board flight delays (LOBFD). 5 In addition, in 2012, the Federal Aviation

           1
             Much of this increase was due to a February 16, 2013 snowstorm in North Carolina, where 34 aircraft were stuck on
           the tarmac—all for more than 3 hours. See exhibit C, Tarmac Delays at a Glance, for more information about delays.
           2
             DOT regulations require airlines to report lengthy flight delays exceeding 3 hours to the Bureau of Transportation
           Statistics (BTS).
           3
             See exhibit D for our prior audit coverage.
           4
             14 CFR Part 259 “Enhanced Protections for Airline Passengers” contains other requirements for air carriers, such as
           publishing flight delay information on their Web sites and adopting customer service plans.
           5
             For the purposes of our audit, a long, on-board flight delay is a delay that requires airlines to execute any assurance in
           their tarmac delay contingency plan.
                                                                                                                      2


Administration (FAA) Modernization and Reform Act 6 (act) required airport
operators to have contingency plans that contain a description of how they will
provide an area that can be secured by U.S. Customs and Border Protection
(Customs), and equipment to aid in passenger deplanement.

As part of the act, Congress directed us to update our 2000 report as well as
examine the impact of flight delays and cancellations on air travelers.
Accordingly, our audit objective was to assess DOT’s oversight of airports’ and
airlines’ compliance with contingency plans and other LOBFD requirements.
Specifically, we assessed DOT’s efforts to (1) review and approve airports’ and
airlines’ contingency plans and (2) investigate potential violations and ensure
implementation of LOBFD requirements.

We conducted our work in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology, and exhibit B
lists organizations we visited or contacted.

RESULTS IN BRIEF
DOT has effectively reviewed and approved contingency plans submitted by U.S.
airports and U.S. airlines. 7 For example, all 20 of the DOT-approved airport plans 8
we reviewed contained the required assurances for protecting passenger comfort
(see exhibit E). We also analyzed 23 U.S. carrier plans 9 and found that only 1 did
not contain all required assurances. However, DOT’s oversight of plans posted on
airlines’ Web sites is insufficient because the Department does not verify that all
posted plans are complete. In fact, of the 23 U.S. and 32 foreign carriers 10 we
reviewed, 4 U.S. and 15 foreign carriers’ Web-posted plans did not include all the
required assurances. For example, one U.S. carrier’s plan was missing 7 of the 11
required assurances 11 and one foreign carrier’s plan was missing 7 of the 10
required assurances (see exhibit F). As a result, passengers may not be aware of
their rights in the event of a LOBFD.

DOT’s efforts to investigate potential violations and ensure implementation of
LOBFD requirements are limited by weaknesses in its investigation process and
tarmac delay regulations. Specifically, DOT sometimes relies on responses from
the airline to describe what occurred during a tarmac delay and whether the carrier
met LOBFD regulations without collecting supporting evidence during its

6
  Public Law No. 112-95, February 14, 2012.
7
  Airlines are required to have a contingency plan in place if the carrier operates scheduled passenger service or public
charter service using any aircraft originally designed to have a passenger capacity of 30 or more seats.
8
  We analyzed 20 of 390 plans that DOT approved.
9
  We analyzed 23 out of 61 plans that DOT approved.
10
   We analyzed 32 of 113 plans. The act does not require DOT to approve foreign carriers’ plans.
11
   The act requires U.S. carriers, but not foreign carriers, to include an assurance of comfortable cabin temperature in
their contingency plans. The DOT regulations do not contain this requirement.
                                                                                                       3


investigations. As a result, DOT may not have sufficient evidence for determining
whether a violation occurred. In addition, weaknesses in DOT’s tarmac delay
regulations make some LOBFD assurances difficult to implement and enforce. For
example, DOT does not require carriers to record their compliance with time-
sensitive assurances, such as when the crew serves food and water or notifies
passengers of delay status as required. Consequently, DOT cannot determine
whether carriers have complied with these assurances within the required time
limits. Also, both DOT’s regulations and its subsequently issued guidance provide
requirements for when food and water should be served that do not meet the
Department’s stated intent. Further, although the act requires carriers to provide
comfortable cabin temperature to passengers, DOT has not included this
requirement in its regulations nor defined what constitutes comfortable cabin
temperature. Without robust requirements, DOT cannot be sure that passengers are
being afforded the relief intended during lengthy flight delays.

We are making recommendations to improve DOT’s oversight of LOBFD
requirements.

BACKGROUND
DOT’s Office of Aviation Enforcement and Proceedings is responsible for
overseeing and investigating LOBFDs of U.S. and foreign carriers operating at
U.S. airports. DOT requires air carriers to adopt, implement, and adhere to tarmac
delay contingency plans. Specifically, the regulations require U.S. and foreign
carriers’ plans to include the following requirements (see figure 1 and exhibit E):

Figure 1. Required Tarmac Delay Assurances for Air Carriers
   1     Provide an opportunity to deplane from an aircraft within 3 hours for domestic flights
   2     Provide an opportunity to deplane from an aircraft within 4 hours for international flights
   3     Serve food and water no later than 2 hours after the aircraft leaves the gate or touches
         down
   4     Provide operable lavatory facilities and medical attention
   5     Notify passengers of the delay status every 30 minutes including the reason if known
   6     Notify passengers that they have an opportunity to deplane from an aircraft every 30
         minutes if it exists
   7     Contain sufficient resources to implement their plan
   8     Coordinate with the airport, including airports carriers use to divert their flights
   9     Coordinate with the U.S. Customs and Border Protection agency
   10    Coordinate with the U.S. Transportation Security Administration (TSA)

Source: Title 14 CFR, Part 259
                                                                                    4


In addition, the act requires that U.S. carriers include an assurance for providing
passengers with a comfortable cabin temperature.

DOT becomes aware of possible tarmac delay violations through various means,
including customer complaints, Bureau of Transportation and Statistics (BTS)
reports, media reports, and carriers’ self-reporting. DOT determines whether the
potential violation warrants further analysis, and if so conducts an investigation.

According to DOT regulations, some required assurances do not apply if: (1) the
pilot-in-command determines there is a safety-related or security-related reason
for the delay, or (2) air traffic control (ATC) determines that returning the aircraft
to the gate would significantly disrupt airport operations. Airlines found not
complying with the requirements can be fined up to $27,500 per passenger. As of
April 2014, DOT assessed over $3.5 million in civil penalties.

DOT ENSURED THAT CARRIERS HAVE LOBFD PLANS, BUT
CARRIERS’ WEB-POSTED PLANS DO NOT CONTAIN ALL
REQUIRED ASSURANCES
DOT developed processes to review and approve U.S. airports and U.S. carriers’
contingency plans. However, DOT did not ensure that plans posted on U.S. and
foreign air carrier Web sites contained all required assurances and were easily
accessible. As a result, consumers may not be aware of their rights in the event of
a LOBFD.

DOT Ensured All U.S. Airports and U.S. Carriers Have Contingency
Plans in Place
DOT has made progress in ensuring that carriers implement LOBFD requirements
by reviewing and approving airports’ and carriers’ contingency plans. In
February 2012, Congress passed the act requiring U.S. air carriers and U.S.
airports to submit their contingency plans for lengthy tarmac delays to DOT for
review and approval. Carriers and airports were required to submit their
contingency plans to DOT by May 14, 2012, and DOT had to review and approve
the plans by August 23, 2012. If DOT’s review determined that a carrier’s plan did
not contain the required content, the plan was returned to the carrier or airport for
revisions to ensure compliance with the regulations.

Per the act, 390 airports and 61 U.S. air carriers were required to submit
contingency plans to DOT. The Department reviewed and approved all plans
within the established timeframe. For airports, we analyzed 20 of the 390 plans
that were approved by DOT, and found that all of them contained the required
assurances. For air carriers, we analyzed 23 of 61 plans that DOT approved and
                                                                                                                     5


found that only 1 did not contain all required assurances. Since we brought this to
DOT’s attention, it has obtained a corrected plan from the carrier.

DOT Has Not Ensured Carriers’ Web-Posted Contingency Plans
Contain All Required Assurances
DOT’s review of contingency plans did not extend to ensuring that plans posted
on U.S. and foreign air carrier Web sites contained all required assurances.
According to DOT regulations, U.S. and foreign air carriers must ensure public
access to their contingency plans by posting them on their Web sites.

However, DOT reviews U.S. and foreign air carrier Web-posted contingency plans
to ensure they contain all required assurances only while investigating potential
LOBFD violations. 12 If no potential violations occur, it is possible that DOT may
never review a carrier’s Web-posted plan. We found 4 of the 23 plans posted on
U.S. carriers’ Web sites did not include one or more of the required assurances.
For example, one U.S. carrier’s plan did not include 7 of the 11 required
assurances (see exhibit F).

We also analyzed 32 of 113 plans posted on foreign carrier Web sites and found
15 did not include one or more of the assurances (see exhibit F). Thirteen of the 15
plans were missing at least two assurances. For instance, one of the foreign
carriers’ plans was missing 7 of the 10 required assurances. As a result, consumers
may not be aware of their rights in the event of a LOBFD.

DOT Has Also Not Ensured Carriers’ Web-Posted Contingency Plans
Are Easily Accessible
DOT regulations require that carriers’ Web-posted plans be easily accessible to the
public. However, we found instances where it would be difficult for passengers to
find the plans on carriers’ Web sites, especially if they do not know key search
words such as “tarmac delay” or “contingency plan.” According to DOT, “easily
accessible” means a customer should be able to find a carrier’s plan on its Web
site without great difficulty. DOT officials told us that most carriers place their
plans under the “customer commitment” or “legal” section of their Web sites,
which the Department determined to be acceptable.

However, as an example, we could not locate one carrier’s contingency plan at all.
It was not accessible from its Web site’s home page, listed under the customer
care or legal section, or easily searchable without knowing the key words. Another
carrier’s contingency plan was under the legal section of its Web site, but could be

12
   According to the Department, it has recently been involved in a long-term project to review 30 foreign carrier Web
sites for compliance with all consumer protection regulations, including the regulations related to the posting and the
adoption of tarmac delay contingency plans. The Department also stated that since 2012 it has conducted onsite audits
of selected foreign carriers, which includes reviewing Web-posted contingency plans.
                                                                                    6


found only after clicking six links in the following order: (1) legal, (2) contract of
carriage, (3) U.S. contract of carriage download, (4) customer service
commitment, (5) customer service commitment link, and (6) comfort during
extended delays. Other carriers placed contingency plans in the passenger rights or
contract of carriage sections. Without specific guidance, consumers may not be
aware of how to get information about their rights during a LOBFD.

DOT’S OVERSIGHT OF LONG, ON-BOARD FLIGHT DELAYS IS
INSUFFICIENT DUE TO WEAKNESSES IN ITS INVESTIGATIONS
AND REGULATIONS
Weaknesses limit DOT’s efforts to investigate potential violations and ensure
implementation of LOBFD requirements. Although DOT conducts investigations
of LOBFDs to determine whether a violation occurred, we found instances where
DOT did not collect supporting documentation during its investigations, other than
the carriers’ written response. In addition, weaknesses in DOT’s regulations make
some LOBFD requirements difficult to enforce. Specifically, the Department does
not require carriers to record time-sensitive requirements, indicate when food and
water should be served as DOT intended, or define what constitutes comfortable
cabin temperature.

DOT Does Not Always Obtain Sufficient Documentation To Support
Its Investigations of Tarmac Delays
Some of DOT’s investigations of carriers’ compliance with LOBFD requirements
are limited by a lack of supporting evidence. When investigating a LOBFD, DOT
requests and receives a written response from the carrier regarding the incident.
The carrier’s response describes what occurred during the tarmac delay according
to the carrier’s internal investigation of the incident and its statement of whether
the regulations were violated. However, we found that sometimes DOT relies on
the carrier’s response, and does not obtain copies of underlying supporting
documentation to verify the airlines’ responses or follow up with other entities to
corroborate the carriers’ statements.

We reviewed DOT’s investigations of 41 LOBFDs and found instances where the
investigations could have been more thorough. For example:

• DOT Relied on the Carrier’s Response Without Corroborating Evidence.
  In one investigation, a passenger complained that she was held on the aircraft
  for about 4 hours, during which restrooms were out of commission most of the
  time, there were no delay notifications to passengers, and she was not notified
  that she could deplane while the aircraft was at the gate. DOT concluded there
  was no violation based solely on the carrier’s response. Specifically, the carrier
  stated that the door was open and passengers had the opportunity to deplane if
                                                                                                                     7


     they wished, but did not state that announcements were made informing
     passengers that they could deplane. Further, the carrier stated it urges the crew
     to communicate more with passengers during delay situations and apologized
     if this was not done. In addition, the carrier stated that the lavatories were
     inoperative temporarily during the incident but that the issue was resolved
     prior to leaving the gate.

     DOT accepted this response and did not collect corroborating evidence, such as
     the carrier’s Aircraft Communication Addressing and Reporting System
     (ACARS) report 13 or crew and maintenance statements to validate the carriers’
     claim that a violation did not occur. Information in the ACARS report would
     have provided the exact gate departure and take-off times. In addition, DOT
     did not collect any evidence proving that announcements were made to inform
     passengers that they could deplane. Crew statements may document when and
     if delay notifications were made, the nature of the announcements to the
     passengers during a tarmac delay event, and if the crew made an opportunity to
     deplane announcement. DOT also did not seek or review maintenance records
     for the lavatory, which would have shown whether a problem existed with the
     lavatory and when and if it was repaired.

•    DOT Did Not Verify Exceptions Claimed by Carriers. Under DOT’s
     regulations, certain tarmac delay assurances do not apply if the delay occurs
     under an established safety and security or ATC exception. However, in some
     cases, DOT relied on the carrier’s statement as justification, without verifying
     the circumstances that prompted the exceptions. For example, after a foreign
     carrier did not deplane passengers within 4 hours, it claimed in its written
     statement to DOT that the delay was due to a security issue, as Customs did not
     permit the flight crew to deplane the passengers. DOT closed the case without
     contacting Customs to corroborate the carrier’s statement. In another
     investigation, a U.S. carrier stated that it could not deplane passengers within 3
     hours because ATC stopped airport operations several times, preventing the
     aircraft from returning to the gate on time. DOT did not pursue enforcement
     action against the carrier and applied the ATC exception without contacting
     FAA to verify whether the circumstances justified an exception.

• DOT Missed Potential Discrepancies in a Carrier’s Response. According to
  DOT, the Department relies on carriers’ responses for its investigations
  because DOT believes that carriers would not risk the severe repercussions of
  providing false information. However, by relying on a single source for
  information DOT could miss discrepancies. For example, in one investigation

13
  Most aircraft are equipped with an automated system, ACARS, which is used to transmit messages between the pilot
and the airlines Operations Control Center. Also, it may be used to capture flight data such as the exact time the plane
was in and out of the gates.
                                                                                      8


    the carrier’s response to DOT stated, “Timely announcements were made by
    the Captain regarding the cause of the delay and updates.” However, in our
    review of supporting documentation for this incident, an email provided to us
    by the air carrier noted that “…no one could accurately give the contents or
    time of the announcements made.” This example illustrates that it is important
    for DOT to collect supporting documentation from the carrier because
    discrepancies between carriers’ responses and carriers’ documentation can
    exist.

DOT Does Not Require Carriers To Record Time-Sensitive
Assurances
Although DOT regulations require carriers to provide passenger protections during
LOBFDs through time-sensitive assurances (see figure 2), the Department does
not require carriers to specifically record or otherwise document the exact times
they complied with these requirements, such as the exact times when the crew
serves food and water to passengers and makes the required announcements. As a
result, DOT cannot verify whether carriers complied with these requirements.

Figure 2. Time-Sensitive Tarmac Delay Assurances

    • Provide an opportunity to deplane from an aircraft within 3 hours for
      domestic and 4 hours for international flights
    • Serve food and water no later than 2 hours after the aircraft leaves the gate
      or touches down
    • Notify passengers of the delay status every 30 minutes including the
      reason if known
    • Notify passengers that they have an opportunity to deplane from an
      aircraft every 30 minutes if it exists

Source: Title 14 CFR, Part 259

Recording compliance with time-sensitive assurances is particularly important
because there can be a time lapse between when a LOBFD incident occurs and
when DOT actually investigates the incident. As a result, relying on the carrier
staff’s memory alone to determine whether and when they met the required
assurances may not be reliable. For example, for one incident, we reviewed carrier
emails and found that the carrier’s staff could not remember exactly when they
served food and water since DOT initiated the investigation one month after the
flight. Specifically, one email states, “We have not been successful in having
anyone that remembers the exact details of this flight since it was a month ago.”
Therefore, it is difficult to verify that food and water were provided within the
required timeframes for this flight, by relying only on the flight carrier staff’s
memory.
                                                                                                                          9



DOT officials told us that they consider the opportunity to deplane assurance to be
one of the most important LOBFD requirements. In fact, a significant percentage
of DOT’s enforcement actions relate to this assurance. Yet, DOT does not require
airlines to document when the opportunity to deplane announcement is made to
passengers, which results in a significant gap in DOT’s tarmac delay reporting
requirements.

Specifically, DOT regulations 14 require U.S. and foreign carriers to report tarmac
delays over 3 hours at U.S. airports through monthly BTS reports. These reports
are essential to DOT in identifying tarmac delays not reported by the media or
passengers. 15 However, these reports do not contain sufficient information for
DOT to determine whether an airline violated the requirement to notify passengers
that they may deplane. This is because DOT regulations do not require airlines to
report the amount of time an aircraft is at the gate and the time the crew announces
that passengers have an opportunity to deplane.

To illustrate, one airline was not required to report an international flight delay in
which all but three passengers remained on the plane for more than 4 hours prior
to take off. After initial departure and a delay on the runway, the aircraft
experienced mechanical problems and returned to the gate, where it remained for
over 90 minutes. Under DOT reporting regulations, 16 the tarmac delay ended when
the aircraft returned to the gate. However, in our opinion, simply returning to the
gate without making the announcement does not constitute an effective
opportunity to deplane. For example, airline officials said “the Captain did not
make the official deplaning announcements as he felt there was no opportunity to
deplane during this time,” and the “3 passengers that asked to deplane were
allowed to leave the aircraft.” Had there been no complaint, DOT would not have
been aware of this violation of the requirement to notify passengers. Further, since
141 passengers stayed on the plane, an equal opportunity for all the passengers to
deplane was clearly not provided; therefore, the total time for calculating the
tarmac delay should have continued. Without requiring carriers to report the total
amount of time passengers are on a plane, and also documenting the time the
carrier announces the opportunity to deplane, DOT cannot ensure that airline
passengers’ rights are being protected.

DOT officials stated that the Department does not want to increase the burden on
carriers by imposing additional requirements to record time-sensitive assurances.

14
   14 CFR Part 244 Reporting Tarmac Delay Data requires carriers to report tarmac delays of 3 hours or more at a U.S.
airport on a scheduled or public charter flight, including a diverted or subsequently cancelled flight.
15
   BTS reports are self-certified times of delays reported by carriers. Carriers often use data from their ACARS or other
internal systems that record times—such as times when cabin doors open or close.
16
   DOT’s reporting regulation defines a gate return as the time that an aircraft that has left the boarding gate returns to a
gate for the purpose of allowing passengers the opportunity to disembark from the aircraft.
                                                                                                          10


However, some carriers have shown that additional recordkeeping requirements
can be practical and not burdensome. For instance, one carrier tailored its ACARS
system to capture when the crew serves food and water and makes required
notifications, while another carrier fills out a form during or immediately after an
incident. However, neither practice is mandatory.

DOT Issued Regulations and Guidance for Serving Food and Water,
But Neither Meet DOT’s Intent
Both DOT’s regulations and its subsequently issued guidance to industry do not
ensure that airlines implement the food and water assurances for departing flight
delays, as the Department intended. As a result, it is difficult for DOT to enforce
this requirement and ensure that passengers receive food and water during a
tarmac delay, as intended.

Specifically, DOT’s regulations and guidance provide conflicting requirements on
when food and water should be served (see table 1). Moreover, neither the
regulations nor the FAQ guidance accurately reflect DOT’s stated intention for
this requirement.

Table 1. DOT’s Conflicting Times Regarding the Food and Water
Assurance for Passengers
                        DOT’s Stated Intent                    DOT                       DOT Guidance
                      (According to Interview)              Regulations                 (FAQ Document)
When should food      No later than 2 hours after    No later than 2 hours after    After 2 hours without a
and water be          passengers no longer           the aircraft leaves the gate   chance to deplane
served to             have an opportunity to         (in the case of
passengers during     deplane—which may be           departures).
a tarmac delay?       before or after the aircraft
                      leaves the gate.

Source: OIG analysis and interviews

DOT’s conflicting language about this requirement may cause passengers to
receive food and water later than DOT intended—especially if an aircraft is
delayed at the gate. Two major carriers said they implement the food and water
service requirement as stated in the DOT regulations, while we found one carrier’s
contingency plan states the assurance as written in the guidance. However, the full
impact is unknown because DOT does not require carriers to document when food
and water service is provided.

DOT Has Not Defined Comfortable Cabin Temperature
DOT has not established a definition for what constitutes comfortable cabin
temperature, despite the fact that the act requires U.S. carriers to include this
assurance in their contingency plan. In addition, although DOT reviews
complaints regarding comfortable cabin temperature, it has not incorporated this
                                                                                                         11


requirement into the regulations. As a result, one carrier we spoke with did not
believe it was bound by the requirement.

Although DOT has not provided a definition of comfortable cabin temperature,
industry experts have made their own recommendations. For example, in a 2013
study, engineers recommended a targeted cabin temperature range from 65 to 75
degrees, but not exceeding 80 degrees. 17

Without DOT defining comfortable cabin temperature, this requirement is difficult
to investigate and enforce. For example, DOT received a complaint from a
passenger saying that during a weather-related diversion, passengers sat on the
plane for over 3 hours without an opportunity to deplane. The passenger stated that
the plane “had little air and it was very hot in the cabin.” In response to DOT’s
inquiry into the complaint, the airline stated, “Our reports indicate that the aircraft
cabin temperature was not unusually warm.” However, the airline did not provide
information about the temperature of the cabin during the incident. Regardless,
based on the airline’s response, DOT did not cite the carrier with a violation.

Although DOT is in the process of updating its tarmac delay regulations, it has not
yet addressed this or other issues with its requirements. DOT’s most recent
proposed rule update, published in a Notice of Proposed Rulemaking on May 23,
2014, clarifies the definition of a “lengthy tarmac delay” to read “more than three
hours” for reporting purposes under 14 CFR 244. The current reporting regulation
incorrectly states that carriers must report tarmac delays of “three hours or more.”
However, the update does not include a requirement to record time-sensitive
assurances, a definition for comfortable cabin temperature, or clarification of when
the food and water should be served. DOT staff told us they intend to address the
cabin temperature issue in a future update to the tarmac delay regulations, but it is
unclear when this regulation will be issued.

CONCLUSION
With the number of air travel passengers expected to grow over the next 10 years,
it is important that DOT continue to enhance airline passenger protections. DOT
has made progress in addressing LOBFDs through issuing regulations and
ensuring airports and airlines have contingency plans intended to enhance
passenger comfort and safety during lengthy delays. However, DOT can improve
its review of contingency plans on carrier Web sites, especially for foreign
carriers. In addition, there is room to strengthen its investigation and
documentation processes and address weaknesses associated with LOBFD

17
   The American National Standards Institute/American Society of Heating, Refrigerating, and Air-Conditioning
Engineers issued Standard 161-2013, “Air Quality within Commercial Aircraft,” updated June 27, 2013, which
addresses acceptable conditions for cabin temperature.
                                                                                 12


regulations. By enhancing its oversight and clarifying its regulations, DOT will
improve the accountability, enforcement, and protection afforded to air travelers.

RECOMMENDATIONS
To meet its goals of improving passengers’ air travel experience, we recommend
that DOT:

1. Develop a process for periodically reviewing a sample of the contingency
   plans that U.S. and foreign air carriers have posted on their Web sites to ensure
   all of the required assurances are included.

2. Clarify the meaning of “easily accessible” in the case of posting carrier
   contingency plans on their Web sites to ensure consumers can easily access
   airlines’ and airports’ obligations to passengers.

3. Obtain supporting evidence from air carriers, and other entities (i.e., FAA,
   Customs, and TSA), to verify airline responses when investigating LOBFDs.

4. Require carriers to keep and maintain records documenting when they:

   a) Notify passengers about the status of the flight delay;
   b) Notify passengers when they have the opportunity to deplane; and
   c) Provide food and water to passengers.

5. Revise DOT regulations to require carriers—when calculating the length of
   tarmac delays for reporting purposes—to include the time when an aircraft is at
   the gate with passengers on board and the crew has not made an announcement
   to deplane.

6. Revise DOT regulations and the FAQ to indicate that U.S. and foreign air
   carriers provide food and water service within 2 hours after passengers no
   longer have the opportunity to deplane.

7. Define comfortable cabin temperature and include the requirement in DOT
   regulations. In the interim, issue guidance to the industry that defines
   comfortable cabin temperature.
                                                                                13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to DOT on August 7, 2014, and received its
response on September 22, 2014, which is included in its entirety as an appendix.
In its response, DOT concurred with recommendations 1 and 2; partially
concurred with recommendations 3, 4, 6, and 7; and did not concur with
recommendation 5. We are requesting additional information or a revised response
for the recommendations detailed below.

DOT partially concurred with recommendation 3, stating that it will obtain
supporting evidence from carriers and other entities when investigating LOBFDs
when warranted. In addition, DOT stated it will establish, by December 31, 2014,
a standard practice for those cases that warrant further investigation and
corroborating evidence. While these actions appear to address the intent of our
recommendation, we request that DOT clarify when supporting evidence is
warranted and provide us with documentation on its proposed new practice. We
consider recommendation 3 resolved but open pending receipt of this information.

DOT partially concurred with recommendations 4, 6, and 7, stating that
implementation of these recommendations requires a rulemaking, and it wants to
avoid prejudging the outcome of the rulemaking process. However, DOT’s
response did not state whether and when it intends to carry out this rulemaking. It
is also unclear whether any update to the regulations will include a requirement to
record time-sensitive assurances and when food and water should be served, as we
recommended. Accordingly, we request that DOT clarify how its planned actions
will meet the intent of these recommendations and provide a target date for
completion. We consider recommendations 4, 6, and 7 unresolved and open
pending receipt of additional information.

DOT did not concur with recommendation 5, stating that it believed our
recommendation was based on a misunderstanding of the “opportunity to deplane”
provision in the Department’s regulations. According to the Department, a case of
an aircraft at the gate with passengers on board when the crew has not announced
that passengers can deplane might not be considered a tarmac delay, because the
opportunity to deplane might actually exist. However, in our opinion, returning to
the gate without making an announcement does not constitute an effective
opportunity to deplane because passengers would not be aware that they have the
opportunity. As a result, passengers could experience unnecessary inconvenience
or hardship by staying on board the aircraft during a lengthy delay. DOT needs to
ensure passengers’ rights are protected by requiring airlines to report the total
length of time that passengers are on board an aircraft during a lengthy delay, as
well as the time the carrier announces the opportunity to deplane. In response to
                                                                                 14


the Department’s misunderstanding of the intent of recommendation 5, we
clarified this recommendation to specifically recommend a revision of DOT
regulations. Accordingly, we request that DOT reconsider its position on this
recommendation.

ACTIONS REQUIRED
We consider recommendations 1 and 2 resolved but open pending completion of
planned actions. We consider recommendation 3 resolved but open pending
receipt of additional information requested above and completion of planned
actions. In addition, we consider recommendations 4, 5, 6, and 7 unresolved, and
request that DOT clarify how its planned actions will meet the intent of
recommendations 4, 6, and 7 and reconsider its response to recommendation 5. In
accordance with DOT Order 8000.1C, please provide this information within 30
days of this report.

We appreciate the courtesies and cooperation of the Department of Transportation,
air carriers, airports, Federal Aviation Administration, U.S. Customs and Border
Protection, and trade association representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1987 or Scott Macey,
Program Director, at (415) 744-3090.

                                         #

cc: DOT Audit Liaison, M-1
                                                                                               15



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from March 2013 through August 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and
conclusions. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

DOT initially denied us access to three items during the audit: (1) a draft notice of
proposed rulemaking on enhancing airline passenger protections; (2) a draft
contractor’s report on the impact of tarmac delay regulations on flight
cancellations and delays; and (3) DOT case files on open tarmac delay
investigations. We were granted access to these items after the issue was elevated
to the Inspector General and Secretary. This caused a minor delay but did not
impact the scope of the audit.

The FAA Modernization and Reform Act of 2012 requires our office to assess the
impact of flight delays and cancellations on air travelers. Accordingly, our audit
objective was to assess DOT’s oversight of airports’ and airlines’ compliance with
contingency plans and other LOBFD requirements. Specifically, we assessed
DOT’s efforts to (1) review and approve airports’ and airlines’ contingency plans,
and (2) investigate potential violations and ensure implementation of LOBFD
requirements.

To achieve our audit objective, we met with DOT’s Office of Aviation
Enforcement and Proceedings to obtain an understanding of their processes for
overseeing airports’ and airlines’ compliance with DOT regulations and the act.
We reviewed and analyzed the DOT regulations and the act to gain comprehensive
understanding of DOT’s responsibilities for overseeing carriers’ and airports’
contingency plans and enforcing LOBFD violations, as well as the carriers,
airports, and other parties’ (i.e., FAA and Customs) roles and responsibilities.

To address the first sub-objective, we assessed DOT’s oversight of airports’ and
airlines’ compliance with contingency plan requirements. We reviewed 20 of 390
U.S. airports plans (we selected primary airports) 18 and 23 of 61 U.S. carrier
contingency plans that were submitted to and approved by DOT as well as the
version posted on their Web sites. The 23 carriers we selected carry at least 85
percent of passengers with U.S. carriers. Finally, we reviewed 32 of 113 foreign
carrier plans posted on their Web sites to determine if they contained all required
assurances. The 32 foreign carriers were selected from the top 6 hub airports.

18
     A primary airport is an airport that has more than 10,000 passengers enplaned annually.


Exhibit A. Scope and Methodology
                                                                                   16



To address the second sub-objective, we met with 11 U.S. air carriers, which carry
at least 70 percent of passengers traveling with U.S. carriers, and 3 foreign carriers
that are required to comply with DOT regulations (see exhibit B). The three
foreign carriers were selected because they have a presence in the United States,
and DOT conducted an investigation on at least one LOBFD incident involving
the carrier during the scope of our review, and the airlines were co-located with
other U.S. carrier site visits. We discussed each carrier’s role in (1) developing
and coordinating their contingency plan, (2) ensuring compliance with the DOT
regulations and the act, (3) reporting LOBFDs, and (4) internally investigating
LOBFD incidents, including their process of collecting and submitting evidence to
DOT. In addition, we collected supporting evidence from these carriers and
compared to the supporting evidence DOT keeps on file for our sample of LOBFD
cases.

To assess DOT’s investigation efforts, we interviewed DOT senior management
and seven DOT attorneys to gain an understanding of their investigative and
enforcement procedures. We also selected and analyzed 41 of 409 LOBFD
incidents that occurred between January 2011 and May 2013, among the 14
carriers we visited (see exhibit B, Airlines), for which DOT conducted an
investigation. The 41 incidents we selected included a variety of assurances under
DOT regulations and the act (including opportunity to deplane, food and water
service, comfortable cabin temperature, flight status notifications, and lavatory
service).

We also visited the FAA and airport personnel at 7 of 390 airports that were
required to submit contingency plans to the Department to determine their role
during a LOBFD, including FAA’s roles in addressing the safety exceptions of the
DOT regulations. We selected these seven airports because they were co-located
with carriers we were visiting. Further, we met with Customs to determine their
coordination role during a LOBFD. Finally, we met with trade associations to
obtain their perspective on tarmac delay regulations (see exhibit B).




Exhibit A. Scope and Methodology
                                                                         17



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

DEPARTMENT OF TRANSPORTATION
Office of the Secretary of Transportation/Office of Aviation Enforcement and
Proceedings
OTHER FEDERAL AGENCIES
U.S. Government Accountability Office
U.S. Customs and Border Protection
Federal Aviation Administration
AIRLINE TRADE ASSOCIATIONS
Airlines for America
Airports Council International
Air Line Pilots Association
Association of Flight Attendants
AIRLINES
Delta Air Lines
Virgin America
American Airlines
American Eagle
U.S. Airways
United Airlines
Southwest Airlines
Jet Blue
Alaska Airlines
Sky West Airlines
Mesa Airlines
Lufthansa
Avianca
Caribbean Airlines
AIRPORTS
Hartsfield-Jackson Atlanta International Airport
Washington-Dulles International Airport
San Francisco International Airport
Charlotte Douglas International Airport
Dallas/Fort Worth International Airport
Chicago O’Hare International Airport
John F. Kennedy International Airport
OTHER AIRLINE INDUSTRY ENTITIES
Rockwell Collins' ARINC

Exhibit B. Organizations Visited or Contacted
                                                                                                   18



EXHIBIT C. TARMAC DELAYS AT A GLANCE

                       Domestic            International        Total Tarmac
                     Tarmac Delays        Tarmac Delays          Delays per          Total Delays
      Year           (over 3 hours)       (over 4 hours)            Year
      2011                 50                   12                    62               2,152,299
      2012                 41                    6                    47               2,006,992
      2013                 84                   13                    97               2,498,610
Source: Research and Innovative Technology Administrations (RITA), Bureau of Transportation Statistics
(BTS)

• Tarmac delays are considered rare events, as they represent only 0.004 percent
  of the total number of delays per year.

• Total delays include all delays where the flight arrived to or departed from the
  gate 15 minutes or more after the scheduled arrival/departure time.

• Although domestic and international tarmac delays decreased by 18 percent
  and 50 percent, respectively, between 2011 and 2012, both more than doubled
  between 2012 and 2013.




Exhibit C. Tarmac Delays at a Glance
                                                                            19


EXHIBIT D. OIG REPORTS AND TESTIMONIES ADDRESSING
LONG, ON-BOARD FLIGHT DELAYS

1. Interim Report on Airline Customer Service Commitment (OIG Report No.
   AV-2000-102), June 27, 2000.
2. Airline Customer Service Commitment (OIG Testimony No. CC-2000-079),
   June 28, 2000.
3. Air Carrier Flight Delays and Cancellations (OIG Report No. CR-2000-112),
   July 25, 2000.
4. Flight Delays and Cancellations (OIG Testimony No. CC-2000-356),
   September 14, 2000.
5. Flight Delays and Cancellations (OIG Report No. CR-2000-122), September
   25, 2000.
6. Final Report on Airline Customer Service Commitment (OIG Report No. AV-
   2001-020), February 12, 2001.
7. Airline Customer Service Commitment (OIG Testimony No. CC-2001-090),
   February 13, 2001.
8. Flight Delays and Cancellations (OIG Testimony No. CC-2001-118), March
   15, 2001.
9. Status Report on Airline Customer Service (OIG Testimony No. CC-2001-
   217), June 20, 2001.
10. Update II: Actions to Enhance Capacity and Reduce Delays and Cancellations
    (OIG Testimony No. CC-2001-260), August 2, 2001.
11. Actions To Enhance Capacity and Reduce Delays and Cancellations (OIG
    Report No. CR-2001-075), August 17, 2001.
12. Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
    Provisions of the Airline Customer Service Commitment (OIG Report No. AV-
    2007-012), November 21, 2006.
13. Refocusing Efforts To Improve Airline Customer Service (OIG Testimony No.
    CC-2007-042), April 11, 2007.
14. Actions Needed to Improve Airline Customer Service (OIG Testimony No. CC-
    2007-046), April 20, 2007.
15. Actions Needed to Minimize Long, On-Board Flight Delays (OIG Report No.
    AV-2007-077), September 25, 2007.


Exhibit D. OIG Reports and Testimoni es Addressing Long, On-Board
Flight Dela ys
                                                                           20


16. Actions Needed to Improve Airline Customer Service and Minimize Long, On-
    Board Delays (OIG Testimony No. CC-2007-099), September 26, 2007.
17. Actions Needed to Improve Airline Customer Service and Minimize Long, On-
    Board Delays (OIG Testimony No. CC-2007-105), September 27, 2007.
18. Status Report on Actions Underway To Address Flight Delays and Improve
    Airline Customer Service (OIG Testimony No. CC-2008-058), April 9, 2008.
19. Progress and Remaining Challenges in Reducing Flight Delays and Improving
    Airline Customer Service (OIG Testimony No. CC-2009-067), May 20, 2009.
20. More Comprehensive Data Are Needed To Better Understand The Nation's
    Flight Delays And Their Causes (OIG Report No. AV-2014-016), December
    18, 2013.

OIG reports and testimonies are available on our Web site at
http://www.oig.dot.gov/.




Exhibit D. OIG Reports and Testimoni es Addressing Long, On-Board
Flight Dela ys
                                                                                                     21


EXHIBIT E. U.S. & FOREIGN AIR CARRIER AND AIRPORT
CONTINGENCY PLAN REQUIREMENTS

                                          Requirements
U.S. & Foreign Air Carriers

FAA Modernization                         •   Provide adequate food, potable water, restroom facilities,
And Reform Act of 2012                        comfortable cabin temperatures, and access to medical
(the act)                                     treatment for passengers.
                                          •   Share facilities and make gates available at the airport in
                                              an emergency.
                                          •   Allow passengers to deplane following an excessive
                                              tarmac delay.

Title 14 CFR, Part 259                    •   An opportunity to deplane within 3 hours for domestic
                                              flights.
                                          •   An opportunity to deplane within 4 hours for international
                                              flights.
                                          •   Food and water service no later than 2 hours after the
                                              aircraft leaves the gate or touches down.
                                          •   Operable lavatory facilities and medical attention.
                                          •   Delay status notifications to passengers every 30
                                              minutes including the reason if known.
                                          •   Notifications to passengers beginning 30 minutes after
                                              scheduled departure time and every 30 minutes
                                              thereafter that they have the opportunity to deplane from
                                              an aircraft, if the opportunity to deplane actually exists.
                                          •   Sufficient resources to implement their plan.
                                          •   Coordination with the airport including regular diversion
                                              airports.
                                          •   Coordination with the U.S. Customs and Border
                                              Protection agency.
                                          •   Coordination with the U.S. Transportation Security
                                              Administration.
                                          •   Retain information on lengthy tarmac delays for 2 years
                                              after the incident.
                                          •   Post contingency plans on their Web site.
U.S. Airports

FAA Modernization                         •   Provide for the deplanement of passengers following an
And Reform Act of 2012                        excessive tarmac delay.
(the act)                                 •   Provide for the sharing of facilities and make gates
                                              available at the airport in an emergency.
                                          •   Provide a sterile area following excessive tarmac
                                              delays.
                                          •   Post their plans on their Web site.

Source: FAA Modernization and Reform Act of 2012 and Title 14 Code of Federal Regulations, Part 259



Exhibit E. U. S. & Foreign Air Carrier and Airport Contingency Plan
Requirements
                                                                                                                                                                                22


EXHIBIT F. REQUIREMENTS MISSING FROM CARRIERS’ CONTINGENCY PLANS

     Airline     Opportunity      Opportunity     Food and     30 Minute      30 Minute      Operable      Sufficient        Plan           Plan          Plan       Comfortable      Total
                 to Deplane        to Deplane       Water        Delay       Opportunity     Lavatories   Resources      Coordinated     Coordinated   Coordinated      Cabin        Missing
                   Within 3         Within 4       Service    Notification   to Deplane If       and      to Execute    with Airports       with        with TSA     Temperature1
                    Hours            Hours         Within 2                  Opportunity      Medical      the Plan       (including      Customs
                  (domestic      (international    Hours                        Exists        Attention                 diversion U.S.
                    flights)         flights)                                                                              airports)

    FOREIGN CARRIERS
        1                                                          X              X                                                          X             X                           4
        2                                                          X              X                                                          X             X                           4
        3                                                                         X                                                                                                    1
        4                                                          X              X                                                                                                    2
        5                                                                         X                                                          X             X                           3
        6                                                     X              X                                                X              X             X                           5

        7                                                                                                                                    X             X                           2
        8                                                                                                                                    X             X                           2
        9                              X                           X              X                           X               X              X             X                           7
       10                                                                         X                                                                                                    1
       11                                                          X              X                                                          X             X                           4
       12                              X                                          X                                                          X             X                           4
       13                                                                                                                                    X             X                           2
       14                                                                                                                                    X             X                           2
       15                                                                                                                                    X             X                           2
    U.S. CARRIERS
        1                                                          X              X                                           X              X             X              X            6
        2                              X                                                                      X               X              X             X                           5
        3                                                          X              X                           X               X              X             X              X            7
        4                                                                                                                                                                 X            1

Key: X = Requirement missing from carrier’s contingency plan
1
    This requirement applies to only U.S. carriers.




Exhibit F. Requirem ents Missing From Carriers’ Contingency Plans
                                                              23



EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Scott Macey                             Program Director

Terri Ahuruonye                         Project Manager

Mackensie Ryan                          Senior Auditor

Doneliya Deneva                         Senior Auditor

Amitra Mamdouhi                         Senior Analyst

Alfredo Atregenio                       Auditor

Audre Azuolas                           Writer-Editor

Seth Kaufman                            Senior Counsel

Petra Swartzlander                      Senior Statistician




Exhibit G. Major Contributors to This Report
                                                                                                                       24


APPENDIX. AGENCY COMMENTS




                                                                                                September 22, 2014

MEMORANDUM

SUBJECT:          Management Comments to OIG Draft Report
                   on Long, On-Board Flight Delays

FROM:             Kathryn B. Thomson
                  General Counsel

TO:               Matthew Hampton
                  Assistant Inspector General
                   for Aviation Audits

The Department has been at the forefront of airline passenger protections 1. In 2009, there were
6,107 domestic long on-board flight delays (LOBFDs) of over two hours involving the largest
U.S. scheduled airlines, of which 868 exceeded three hours. In 2013, there were 3,180 domestic
LOBFDs of over 2 hours and the number of LOBFDs over three hours was less than 0.001% of
all domestic flights. Moreover, per the FAA Modernization and Reform Act of 2012, DOT
reviewed and approved 390 covered airports and 61 covered U.S. carrier tarmac delay plans
within the 90-day statutory mandated time period, 49 U.S.C. § 42301. DOT views its LOBFD
program to be a success.

    •    Since the tarmac delay regulations became effective, the Office of Aviation Enforcement
         and Proceedings (Enforcement Office) has investigated and closed 462 cases involving
         587 flights. As a result of its investigations, DOT has issued cease and desist orders
         assessing civil penalties in 15 cases involving 43 flights for violations of various
         provisions of the tarmac delay rule, with civil penalties totaling $3,550,000. A number
         of warning letters have also been issued.

    •    During the course of its audit, OIG reviewed 28 cases involving 41 incidents of LOBFDs.
         In 24 cases reviewed there is no dispute that the Enforcement Office collected sufficient
         evidence.

1
 On December 30, 2009, and April 25, 2011, DOT published a comprehensive set of regulations addressing long on-board flight
delays (LOBFDs) and the related issues consumers face during these extended tarmac delays. These regulations and DOT’s
subsequent enforcement have contributed to a significant decline in the number of LOBFDs.


Appendix. Agency Comments
                                                                                                 25


   •   The Enforcement Office has always obtained supporting documentation from carriers and
       corroborating evidence from other entities (FAA, airport authorities, TSA, CBP) in
       appropriate cases. The experience of the Enforcement Office has been that carrier
       statements, often signed by legal counsel, are reliable and that carriers routinely admit a
       violation when one occurs. Further, pursuant to 18 U.S.C. § 1001, carriers face civil
       penalties for providing false information to the federal government.

   •   DOT’s reporting regulations (14 CFR Parts 234 and 244) adequately capture LOBFDs of
       three hours or more. DOT has issued 7 consent orders against carriers for failure to file
       accurate on-time performance information for a lengthy tarmac delay as required in
       DOT’s reporting regulations, and issued several warning letters.

   •   DOT’s investigation process currently captures time-sensitive assurances such as the
       times when the crew serves food and water to passengers and makes the required
       announcements. DOT has issued 4 consent orders as well as a number of warning letters
       that cover failure of airlines to provide food and water within the allotted time, and 6
       consent orders that include failure to provide timely deplaning notification.

Based on our review of the draft report, we agree to implement OIG recommendations 1 and 2,
as written, by September 30, 2015. We partially concur with recommendation 3 which concerns
obtaining additional documentation to support investigations of tarmac delays. The Enforcement
Office will obtain supporting evidence from carriers and other entities when investigating
LOBFDs when the circumstances of the case warrant obtaining such supporting evidence. By
December 31, 2014, the Enforcement Office will establish a standard practice for those cases that
warrant further investigation and corroborating evidence. We do not concur with
recommendation 5 which pertains to calculating the length of a tarmac delay for reporting
purposes. It appears the recommendation is based on a misunderstanding of the ‘opportunity to
deplane’ provision in the Department’s regulation. In order to avoid prejudging the outcome of
the rulemaking process, we partially concur with recommendations 4, 6 and 7 as implementation
of those recommendations requires a rulemaking.

We appreciate this opportunity to offer additional perspective on the OIG draft report. Please
contact Blane A. Workie, Acting Assistant General Counsel, Office of Aviation Enforcement
and Proceedings, at (202) 366-9345 with any questions or if the OIG would like to obtain
additional details about these comments.




Appendix. Agency Comments
